OIG Investigative Reports,Columbia, SC May 30, 2012 - Thirteen Defendants Plead Guilty in $689,000 Walterboro Area Student Aid Fraud Conspiracy
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
PRESS NOTICE
BILL NETTLES
UNITED STATES ATTORNEY
DISTRICT OF SOUTH CAROLINA
1441 Main Street, Suite 500 * Columbia, SC 29201 * (803) 929-3000
May 30, 2012
FOR IMMEDIATE  RELEASE
CONTACT PERSON::   Beth Drake
Beth.Drake@usdoj.gov
803-929-3000
THIRTEEN DEFENDANTS PLEAD GUILTY IN $689,000 WALTERBORO AREA STUDENT AID FRAUD CONSPIRACY
Columbia, South Carolina ---- United States Attorney Bill Nettles stated today that thirteen co-defendants have pleaded guilty this month in federal court in Charleston to Conspiracy to Commit Mail Fraud, Wire Fraud, and Student Financial Aid Fraud, all in violation of Title 18, United States Code, Section 371. United States District Judge David C. Norton of Charleston accepted the pleas and will impose sentences after he has reviewed the presentence reports which will be prepared by the U.S. Probation Office.
Deena Holmes, age 39, of Walterboro, pleaded guilty today.  Sierria Thomas, age 24, of Green Pond, Mayella Saxon, age 52, of Fairfax, Helen Ross, age 41, of Williston, Kourtney Fishburne, age 27, of Orlando, Florida, and Shanean Glaze, age 32, of Walterboro, pleaded guilty on May 14. Marvin Spell, age 49, of Yemassee, and Tameko Fishburne, age 29, of Walterboro, pleaded guilty on May 11. Marquita Fishburne, age 28, of Walterboro, and Cleo Fryar, a/k/a Cleo Cooper, age 39, of Walterboro, pleaded guilty on May 10. Lena Gant, age 48, of Walterboro, pleaded guilty on May 7. Latanya Cochran, age 41, of Orangeburg, and Shannon Fishburne, age 32, of Walterboro, pleaded guilty on May 1.
Evidence presented at the change of plea hearings established that the conspirators caused to be recruited individuals known as "straw students" who  were told that they could get thousands of dollars in student financial aid without having to take online college courses. The "straw students" included family, friends, and co-workers of the conspirators. For example, Tameko Fishburne, an employee at that time of South Carolina Department of Corrections, Allendale Correctional Institution, recruited four of her Allendale Correctional Institution co-workers, including Helen Ross and Mayella Saxon, to participate in the conspiracy. The conspirators used the personal information of the "straw students" to file false online college admissions applications and federal student financial aid applications in the names of the "straw students."  As a result, the conspirators caused student loans and grants and student aid credit balance refund checks to be issued in the name of the "straw students." The conspirators were paid through "fees" taken from the student aid credit balance refund checks received by the "straw students." The conspirators caused at least $689,000.00 of student loans and grants to be disbursed in the names of ineligible individuals.
Mr. Nettles stated the maximum penalty each defendant can receive is a fine of $250,000 and/or imprisonment for 5 years, plus a special assessment of $100.
The case was investigated by agents of the Department of Education, Office of Inspector General, the United States Postal Inspection Service, and the United States Secret Service.  Assistant United States Attorney Dean H. Secor of the Charleston office handled the case.
#####
Top
Printable view
Last Modified: 05/31/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov